APPENDIX
APPENDIX A:

Order denying Motion to Suppress, United States District Court
for the Southern District of Iowa, 4:18-cr-00134-001 October 16,
2018 ................................................................................................ 1

APPENDIX B:

Judgment of the United States District Court for the Southern
District of Iowa, 4:18-cr-00134-001 February 25, 2019 ............. 11

APPENDIX C:

Opinion of the Eighth Circuit Court of Appeals, 19-1507 March
31, 2020 ........................................................................................ 20

APPENDIX D:

Judgment of the Eighth Circuit Court of Appeals, 19-1507 March
31, 2020 ........................................................................................ 27

APPENDIX E:

Order denying Petition for Rehearing En Banc and Rehearing by
Panel by Eighth Circuit Court of Appeals, 19-1507 May 15,
2020 .............................................................................................. 29

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

No. 4:18cr00134-JAJ

vs.
JOEL THOMAS AUGARD,

ORDER

Defendant.
This matter comes before the court pursuant to the defendant’s September 21, 2018
Motion to Suppress and Request for an Evidentiary Hearing. [Dkt. 27] The motion
challenges a search warrant issued by the Iowa District Court for Polk County on April 27,
2018. The defendant contends that probable cause to search the defendant’s residence
cannot be found in the warrant affidavit because the information is stale. Further, he
contends that the affidavit did not show a nexus between the evidence sought and the place
to be searched. The defendant further contends that the good faith exception to the
exclusionary rule should not apply because the affidavit is so facially deficient as to
preclude a reasonable officer from relying upon its issuance. Finally, the defendant
contends that the affiant omitted facts from the affidavit that render it misleading.
The government contends that the warrant affidavit supports a finding of probable
cause. It contends that even if probable cause is absent, the evidence should not be
suppressed because of the good faith exception to the exclusionary rule. Finally, the
government contends that the defendant is not entitled to a hearing pursuant to Franks v.
Delaware.
The court finds that the affidavit in support of the warrant is not supported by
probable cause. However, the evidence is not subject to suppression because the good
Appendix A
Appendix p. 001

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 2 of 10

faith exception to the exclusionary rule applies in this instance. The court denies the
defendant’s request for a Franks v. Delaware hearing.
Search Warrant
On April 27, 2018 Detective Lori Kelly appeared before a state district court judge
seeking a warrant to search the defendant’s residence at 1039 Park Avenue, Cherokee,
Iowa. Kelly stated in her affidavit that she had been a police officer since 1998, assigned
to the detective bureau of the Des Moines Police Department since 2003. She has
considerable experience investigating sex offenses.
In her affidavit, she informed the issuing judge that on April 13, 2018 victim (G.P.)
informed her that he was a victim of sexual abuse in approximately 2005 or 2006 when he
was approximately 11 to 12 years old. At that time G.P.’s family lived in Des Moines.
The affidavit reveals that G.P.’s parents were involved in a volleyball league and became
with defendant Joel Augard. Kelly described in detail the allegations made by G.P. G.P.
informed her that he was heavily involved with computer gaming. When the defendant
would come to G.P.’s home, the defendant and G.P. would play video games together.
Eventually, Augard asked if G.P. could come to his house, with his computer, so that they
could play a particular game together. This activity was repeated approximately four to
five times with no sexual abuse occurring.
The affidavit reveals that after about five visits from G.P. to the defendant’s home,
the defendant began playing pornographic movies briefly for increasing amounts of time
as G.P.’s visits to Augard’s home continued. According to G.P., the defendant then began
a hands-on form of sexual abuse with G.P. The sexual abuse is alleged to have occurred
every time G.P. went to the defendant’s house to play video games for a period of
approximately a year. The nature of the sexual abuse became more intense. Eventually,
it involved the use of sex toys coming from a store called “Adam & Eve”.

2
Appendix p. 002

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 3 of 10

G.P. informed Kelly that the defendant began filming and photographing the abuse.
The defendant is alleged to have taken numerous photographs with a point and shoot style
camera which he later downloaded to his computer. He set up a tripod and videotaped
himself sexually abusing G.P. on at least three occasions. G.P. stated that the photos and
videos were on Augard’s computer because Augard showed them to G.P. on the computer.
The final act of abuse that was videotaped was a bondage scene with G.P. as the victim.
The affidavit further states that the defendant lost his job with Polk County and lost
his home due to foreclosure. The defendant later got a job at the University of Iowa
working in the information technology field. The defendant told G.P. and G.P.’s parents
that he had been fired from his IT job at Polk County for being in possession of
pornography.
G.P. further reported that when he was approximately 15 years old, he went to the
University of Iowa to watch his sister in a swim meet. He stated that he received a call
from the defendant who had apparently observed G.P. while monitoring security cameras.
Finally, G.P. reported the last contact with the defendant as being a Facebook message
from the defendant asking why the defendant had not been invited to G.P.’s wedding.
Kelly attempted successfully to corroborate a number of the details provided by
G.P. Kelly corroborated the defendant’s prior address through the Polk County Assessor’s
website.

She confirmed employment through the Polk County Human Resources

Department. She corroborated the defendant’s employment at the University of Iowa by
contacting the University of Iowa police. She determined his current address by checking
Department of Transportation driver license records.

She also determined that the

defendant registered a blue 2003 Ford Expedition to the address listed on his driver’s
license.

Finally, a DCI agent conducted surveillance at the address listed on the

3
Appendix p. 003

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 4 of 10

defendant’s driver’s license and observed the blue 2003 Ford Expedition registered to the
defendant at the residence on April 19-20, 2018.
Kelly’s affidavit informed the issuing judge that any computer would have to be
seized and retained by her for a period of time in order to conduct an appropriate
investigation. She specifically stated that she was looking for any nude or partially nude
images or videos of minors, any evidence of infliction of harm and/or extortion of minors
and any photographs of G.P. She detailed the search methodology to be employed in
significant detail.
The warrant authorized the search of the residence at 1039 Park Avenue, Cherokee,
Iowa. It authorized the search of any computer systems at the residence that are accessible
by the defendant. It authorized the search and seizure of cellular telephones, mobile
devices and video game consoles. It authorized the search of the defendant and his blue
Ford Expedition. Finally, it authorized the police to seize sex toys and evidence of the
purchase of sex toys from the online store “Adam & Eve”. The application affidavit and
supporting documents for this warrant are 25 pages long.
Search Warrant - Probable Cause
Because the evidence sought to be suppressed was gathered pursuant to a search
warrant, the court employs the standard set forth in Illinois v. Gates, 462 U.S. 213 (1983),
to determine the existence of probable cause. It is well established that a warrant affidavit
must show particular facts and circumstances in support of the existence of probable cause
sufficient to allow the issuing judicial officer to make an independent evaluation of the
application for a search warrant. The duty of the judicial officer issuing a search warrant
is to make a "practical, commonsense decision" whether a reasonable person would have
reason to suspect that evidence would be discovered, based on the totality of the
circumstances.

United States v. Peterson, 867 F.2d 1110, 1113 (8th Cir. 1989).

4
Appendix p. 004

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 5 of 10

Sufficient information must be presented to the issuing judge to allow that official to
determine probable cause; his action cannot be a mere ratification of the bare conclusion
of others. Gates, supra, at 239. However, it is clear that only the probability, and not a
prima facie showing, of criminal activity is required to establish probable cause. Gates,
supra, at 235.

This court does not review the sufficiency of an affidavit de novo. An

issuing judge's determination of probable cause should be paid great deference by
reviewing courts. Gates, supra, at 236. The duty of the reviewing court is simply to
ensure that the issuing judge had a substantial basis for concluding that probable cause
existed, Gates, supra, at 238-39.
Even where probable cause is lacking, the court's inquiry does not end. Pursuant
to United States v. Leon, 468 U.S. 897 (1984), in the absence of an allegation that the
issuing judge abandoned a neutral and detached role, suppression is appropriate only if the
affiant was dishonest or reckless in preparing the affidavit or could not have harbored an
objectively reasonable belief in the existence of probable cause. In Leon, the United States
Supreme Court noted the strong preference for search warrants and stated that in a doubtful
or marginal case a search under a warrant may be sustainable where without one, it would
fall. Leon, supra, at 914.
Searches pursuant to a warrant will rarely require any deep
inquiry into reasonableness, . . . for a warrant issued by a
magistrate normally suffices to establish that a law
enforcement officer has acted in good faith in conducting the
search. . . . Nevertheless, the officer's reliance on the
magistrate's probable-cause determination and on the technical
sufficiency of the warrant he issues must be objectively
reasonable,
. . . and it is clear in some circumstances the officer will have
no reasonable grounds for believing that the warrant was
properly issued.
Leon, supra, at 922-23.

5
Appendix p. 005

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 6 of 10

Pursuant to Leon, suppression remains an appropriate remedy: (1) where the
magistrate issuing a warrant was mislead by information in an affidavit that the affiant
knew was false or would have known was false except for his reckless disregard for the
truth, Franks v. Delaware, 438 U.S. 154 (1978); (2) where the issuing magistrate wholly
abandons the judicial role and becomes a "rubber stamp" for the government; (3) where
the officer relies on a warrant based on an affidavit so lacking in indicia of probable cause
as to render official belief in its existence entirely unreasonable; or (4) where the warrant
is so facially deficient in failing to particularize the place to be searched or the things to
be seized that the executing officers cannot reasonably presume it to be valid. In Leon,
the remedy of suppression was not ordered despite the fact that the affidavit in that case
did not establish probable cause to search the residence in question.

Further, the

information was fatally stale and failed to properly establish the informant's credibility.
The standard announced in Leon is an objective standard.
Staleness
The defendant contends that probable cause to search the defendant’s residence
cannot be found in the warrant affidavit because the information is stale. “There is no
bright-line test for determining when information in a warrant is stale.” See United States
v. Huyck, 849 F.3d 432, 439 (8th Cir. 2017) (quoting United States v. Lemon, 590 F.3d
612, 614 (8th Cir. 2017)). Instead, a court must look to “the lapse of time since the
warrant was issued, the nature of the criminal activity, and the kind of property subject to
the search.” Id. Even a lengthy lapse in time becomes “least important when the suspected
criminal activity is continuing in nature and when the property is not likely to be destroyed
or dissipated.” United States v. Johnson, 848 F.3d 872, 877 (8th Cir. 2017) (emphasis
added). Thus, staleness would be a pressing concern when the warrant describes a stash
of cocaine held by a suspected drug dealer: according to a dealer’s usual habits, the
cocaine is likely to be either consumed or sold after a short period of time. See, e.g.,
United States v. Frechette, 583 F.3d 374, 378 (6th Cir. 2009).

6
Appendix p. 006

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 7 of 10

Images of child pornography, in contrast, are “likely to be hoarded by persons
interested in those materials.” See United States v. Riccardi, 405 F.3d 852, 861 (10th Cir.
2005). Due to the difficulty of initial collection and possession, collectors are unlikely to
destroy images after having succeeded in obtaining or creating them. See United States v.
Chrobak, 289 F.3d 1043 (8th Cir. 2002) (crediting an agent’s testimony that “child
pornographers retain their pornography for extended periods”). Put simply, the “hoarding
habits of child pornography collectors” are “well-established,” United States v. Notman,
831 F.3d 1084, 1088 (8th Cir. 2016), and this common-sense consideration plays a role
in a judge’s assessment of probable cause.
Suppression remains inappropriate even for a warrant based on state information
when the executing officers’ conduct falls within Leon’s good faith exception. See Leon,
supra, at 904, 926 (reversing the Ninth Circuit’s suppression of a warrant based on “fatally
stale” information). Thus, because none of Leon’s exceptions applied, a warrant issued
based on stale information about a prescription drug buy survived suppression. United
States v. Pope, 467 F.3d 912 (5th Cir. 2006). And even when a delay of several years
between a tip about child pornography and the issuance of a warrant renders that
information stale, the warrant is saved when the officers relied on the warrant in good
faith. United States v. Prideaux-Wentz, 543 F.3d 954, 957-59 (7th Cir. 2008).
Franks v. Delaware
The defendant contends that the affiant recklessly omitted two facts from the
warrant affidavit that detract from a finding of probable cause. First, that the defendant
moved residences on multiple occasions since the time of the alleged abuse. Second, that
the place to be searched was owned by the defendant’s parents.
In order to prevail on a challenge to a warrant affidavit pursuant to Franks v.
Delaware, 438 U.S. 154 (1978), the challenger must show (1) that a false statement
knowingly and intentionally or with reckless disregard for the truth, was included in the

7
Appendix p. 007

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 8 of 10

affidavit and (2) that the affidavit’s remaining content is insufficient to establish probable
cause. United States v. Gladney, 48 F.3d 309, 313 (8th Cir. 1995).
To mandate an evidentiary hearing, the challenger's attack
must be more than conclusory and must be supported by more
than a mere desire to cross-examine. There must be
allegations of deliberate falsehood or of reckless disregard for
the truth, and those allegations must be accompanied by an
offer of proof. They should point out specifically the portion
of the warrant affidavit that is claimed to be false; and they
should be accompanied by a statement of supporting reasons.
Affidavits or sworn or otherwise reliable statements of
witnesses should be furnished, or their absence satisfactorily
explained. Allegations of negligence or innocent mistake are
insufficient.
Franks v. Delaware, supra, at 171.
Further, in order to mandate a hearing, the challenged statements in the affidavit
must be necessary to a finding of probable cause. United States v. Flagg, 919 F.2d 499
(8th Cir. 1990). United States v. Streeter, 907 F.2d 781, 788 (8th Cir. 1990) (contested
material must be "vital" to probable cause). It must also be remembered that although the
affidavit must contain statements that are truthful,
This does not mean "truthful" in the sense that every fact
recited in the warrant affidavit is necessarily correct. For
probable cause may be founded upon hearsay and upon
information received from informants, as well as upon
information within the affiant's own knowledge that some
times must be garnered hastily. But surely it is to be "truthful"
in the sense that the information put forth is believed or
appropriately accepted by the affiant as true.
Franks v. Delaware, supra, at 165.
Omissions of facts are not misrepresentations unless they cast doubt on the existence
of probable cause. United States v. Parker, 836 F.2d 1080, 1083 (8th Cir. 1987). The
same analytical process used to determine whether an affidavit contains a material
falsehood is used to determine whether an omission will vitiate a warrant affidavit under

8
Appendix p. 008

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 9 of 10

Franks. United States v. Lueth, 807 F.2d 719, 726 (8th Cir. 1986). The defendant must
show that (1) the police omitted facts with the intent to make, or in reckless disregard of
whether they thereby made, the affidavit misleading, and (2) that the affidavit, if
supplemented by the omitted information, would not have been sufficient to support a
finding of probable cause. With respect to the second element, suppression is warranted
only if the affidavit as supplemented by the omitted material could not have supported the
existence of probable cause. Lueth, supra, at 726.
For example, the fact that an informant had a criminal record and was cooperating
under a plea agreement is not critical to the finding of probable cause. Flagg, supra;
United States v. Martin, 866 F.2d 972 (8th Cir. 1989) (omission of fact of informant's
drug addiction of no consequence to determination of probable cause). The fact that the
police omitted information that an informant had been a drug dealer, was cooperating with
the police in order to receive leniency, and was being paid by the police did not warrant
relief in United States v. Wold, 979 F.2d 632 (8th Cir. 1992). See also United States v.
Reivich, 793 F.2d 957 (8th Cir. 1986). It is not necessary to notify the magistrate of an
informant's criminal history if the informant's information is at least partially
corroborated. United States v. Parker, supra. Similarly, it was not misleading, as a
matter of law, to omit the fact that the informant was the defendant’s sister. United States
v. Johnson, 925 F.2d 1115 (8th Cir. 1991).
Here, the omitted facts do not warrant relief or a hearing. First, the affidavit shows
that the residence where the alleged abuse occurred is not where the defendant currently
resides. Second, it is of no consequence to this warrant to know who owned the place to
be searched or that others may also live there.

9
Appendix p. 009

Case 4:18-cr-00134-JAJ-CFB Document 29 Filed 10/16/18 Page 10 of 10

Conclusion
Upon the foregoing,
IT IS ORDERED that the defendant’s September 21, 2018 Motion to Suppress
[Dkt. 27] is denied.
DATED this 16th day of October, 2018.

10
Appendix p. 010

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 1 of 9

Appendix B
Appendix p. 011

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 2 of 9

Appendix p. 012

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 3 of 9

Appendix p. 013

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 4 of 9

Appendix p. 014

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 5 of 9

Appendix p. 015

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 6 of 9

Appendix p. 016

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 7 of 9

Appendix p. 017

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 8 of 9

Appendix p. 018

Case 4:18-cr-00134-JAJ-CFB Document 51 Filed 02/25/19 Page 9 of 9

Appendix p. 019

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-1507
___________________________
United States of America
Plaintiff Appellee
v.
Joel Thomas Augard
Defendant Appellant
____________
Appeal from United States District Court
for the Southern District of Iowa - Des Moines
____________
Submitted: January 15, 2020
Filed: March 31, 2020
____________
Before COLLOTON, SHEPHERD, and ERICKSON, Circuit Judges.
____________
ERICKSON, Circuit Judge.
Joel Thomas Augard pled guilty to two counts of production of child
pornography in violation of 18 U.S.C. §§ 2251(a) and (e) and one count of possession
of child pornography in violation of 18 U.S.C. §§ 2252A(a)(5)(B) and (b)(2). Augard
moved to suppress evidence uncovered when police searched the home he shared

Appellate Case: 19-1507

Page: 1

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix C
Appendix p. 020

with his parents. The district court1 denied Augard’s motion without a hearing,
finding the warrant lacked probable cause but fell within the good-faith exception.
We have jurisdiction under 28 U.S.C. § 1291 and affirm.
I. Background
In 2005 or 2006, when G.P. was eleven or twelve years old, he met Augard, an
adult, through a volleyball league. Augard and G.P. shared an interest in video games
and G.P. soon began visiting Augard at his home to play video games. After five
visits Augard’s grooming of G.P. escalated to the showing of pornography.
Eventually Augard began sexually abusing G.P., including one incident involving
bondage. Augard would use a point-and-shoot camera to film the abuse, transfer the
resulting images and video to his computer, and play the videos for G.P. on
subsequent visits. The cycle of abuse continued for about a year and only ended
when Augard was fired from his job, lost his house to foreclosure, and relocated to
take a new job.
Augard’s interest in G.P. waned but did not end after he moved. When G.P.
was fifteen years old, G.P. attended a sporting event at the University of Iowa where
Augard was employed in the university’s information technology department. When
Augard saw G.P. on a security camera, he sent G.P. a text message saying, “I see
you.” In 2016, Augard sent G.P. a Facebook message asking why he had not been
invited to G.P.’s wedding.
On April 13, 2018, G.P. reported the abuse and more recent contacts with
Augard to Detective Lori Kelly of the Des Moines Police Department. Detective
Kelly detailed the allegations in a April 27, 2018, affidavit in support of an

1

The Honorable John A. Jarvey, Chief Judge, United States District Court for
the Southern District of Iowa.
-2-

Appellate Case: 19-1507

Page: 2

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 021

application for a search warrant for Augard’s home. The warrant described the place
to be searched as a home located at a specific address in Cherokee, Iowa (“the
house”). Detective Kelly’s affidavit stated that Iowa Department of Transportation
(“DOT”) records showed that in December 2017 Augard listed this address as his
residence on his driver’s license. DOT records also contained a registration for
Augard’s vehicle to the same address. The affidavit noted that surveillance
established Augard’s vehicle parked outside the house. Detective Kelly’s affidavit
also described how she independently corroborated portions of G.P.’s story by crossreferencing Augard’s available employment history.
The house was searched pursuant to the warrant and officers found child
pornography. Augard was charged with production and possession of child
pornography. He moved to suppress the results of the search claiming that the
warrant contained stale information and failed to establish a sufficient nexus between
the evidence sought and the house. Augard argued the good-faith exception did not
apply because: (1) stale information and lack of nexus made executing the affidavit
unreasonable; and (2) Detective Kelly did not disclose in her affidavit that Augard
had moved several times since 2005 or that the house in Cherokee, Iowa belonged to
his parents. Augard requested a Franks hearing based on Detective Kelly’s omission.
The district court denied Augard’s motion to suppress without an evidentiary
hearing, finding that although the warrant lacked probable cause, the search fell
within the good-faith exception. The court also denied the request for a Franks
hearing. Augard pled guilty and was sentenced to 480 months’ imprisonment.
Augard appeals the denial of his suppression motion, reasserting the arguments he
presented to the district court.

-3-

Appellate Case: 19-1507

Page: 3

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 022

II. Discussion
We review the district court’s findings of fact for clear error and the probable
cause determination and application of the good-faith exception de novo. United
States v. Keele, 589 F.3d 940, 943 (8th Cir. 2009). Here, we assume the warrant
lacked probable cause. If a warrant lacks probable cause and the executing officer
was objectively reasonable in relying on the warrant, the good-faith exception to the
exclusionary rule applies and evidence should not be suppressed due to an absence
of probable cause. United States v. Leon, 468 U.S. 897, 922–23 (1984). An officer’s
reliance is only unreasonable if: (1) the affidavit supporting the warrant contains
knowing or reckless false statements misleading the judge; (2) the issuing judge
wholly abandons its judicial role in issuing the warrant; (3) the affidavit is so lacking
in indicia of probable cause that reliance is entirely unreasonable; or (4) the warrant
is so facially deficient that no reasonable officer could consider it valid. United
States v. Proell, 485 F.3d 427, 431 (8th Cir. 2007). The good-faith exception may
apply based on information reasonably known to the executing officer but not
included in the warrant. United States v. Jackson, 784 F.3d 1227, 1231 (8th Cir.
2015).
Augard broadly asserts that the officer’s reliance was unreasonable because the
issuing judge abandoned his judicial role, the warrant was facially deficient, and the
warrant was so lacking in probable cause that no reasonable officer could consider
it valid. He has failed to articulate any reasons for his first two assertions. Instead,
Augard focused on the following alleged deficiencies: (1) the staleness of the
information in the supporting affidavit; and (2) the lack of a nexus between evidence
of illegal activity and the house.
While there is no bright-line test for determining staleness, we look to a variety
of factors, including the nature of the criminal activity and the type of property
subject to search. United States v. Huyck, 849 F.3d 432, 439 (8th Cir. 2017). If the
-4-

Appellate Case: 19-1507

Page: 4

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 023

elapsed time between the criminal activity and warrant issuance in the case leaves the
evidence too stale to support a finding of probable cause, the nature of the crime and
evidence sought may still militate in favor of applying the good-faith exception.
United States v. Rugh, 968 F.2d 750, 754 (8th Cir. 1992).
The criminal activity in this case is sexual abuse of a child and production of
child pornography. The essence of these crimes involves the abuse of a trust and
power relationship, which frequently delays reporting until the minor has obtained
majority. G.P. eventually reported the abuse directly to Detective Kelly, who
independently corroborated details of the allegation. The affidavit described
Augard’s extensive grooming of G.P., his repeated abuse of G.P. over a one year
period, and his efforts to contact G.P. as recently as 2016. The affidavit also
described Augard’s prolonged unusual interest in G.P., his need to memorialize and
revisit the sexual abuse by retaining and viewing videos, and his efforts to preserve
the recordings on a computer for future viewing. Considering the specific nature of
the crimes being investigated, the evidence supporting the warrant application was
not so stale as to render the officer’s reliance on the warrant entirely unreasonable.
The type of property subject to search included digital images and videos of
child pornography, which are typically retained for long periods of time. Huyck, 849
F.3d at 439. Given Augard’s particular interest and investment in recording the
videos on one device, saving and transferring them to another, and revisiting them
with G.P. on numerous occasions, the property subject to search in this case was
reasonably likely to be retained and kept by Augard close at hand or near him. Like
the nature of the crimes, the type of evidence sought establishes the warrant was not
so stale that the officer’s reliance was entirely unreasonable.
As to the nexus, law enforcement officers may make reasonable inferences in
preparing affidavits in support of a warrant. United States v. Thompson, 210 F.3d
855, 860 (8th Cir. 2000). A judge may also draw reasonable inferences based on the
-5-

Appellate Case: 19-1507

Page: 5

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 024

totality of the circumstances in deciding to issue the warrant. Id. The circumstances
surrounding this case, including the prolonged grooming, repeated acts of sexual
abuse, pornography production, transfer to a storage device, and repeated viewing
that occurred regularly over the course of a year, permit a reasonable inference that
images and videos Augard took and preserved at a prior residence would be located
at his current residence. See United States v. Summage, 481 F.3d 1075, 1078 (8th
Cir. 2007) (permitting reasonable inference that a defendant who produced
pornography at a prior residence would retain evidence at his new residence). This
information established a sufficient nexus connecting the evidence to the house.
We are unpersuaded by Augard’s claim that the good-faith exception does not
apply because Detective Kelly did not inform the issuing judge that the house was
owned by his parents and that he had moved several times since 2005. The
supporting affidavit notes that Augard had moved after the abuse. Detective Kelly
confirmed Augard lived at the house through multiple sources, including DOT
records and surveillance. Considering the likelihood of Augard’s presence in the
house and that he would retain images and videos memorializing his abuse of G.P.
wherever he was living, actual ownership of the home is immaterial to a finding of
probable cause. Omitting his parents’ ownership of the house does not render the
good-faith exception inapplicable.
Because the arguments advanced by Augard presented no contested issue of
fact and his suppression motion was decided as a matter of law, the district court did
not abuse its discretion by declining to hold an evidentiary hearing. United States v.
Stevenson, 727 F.3d 826, 830 (8th Cir. 2013). Likewise, having found ownership of
the house was immaterial to a probable cause determination and omission of the
details regarding Augard’s moves was not a misrepresentation, the district court did
not abuse its discretion in declining to hold a Franks hearing. Franks v. Delaware,
438 U.S. 154, 155–56 (1978) (to be entitled to a hearing, the defendant must make
a substantial showing that an affidavit includes a knowing or reckless
-6-

Appellate Case: 19-1507

Page: 6

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 025

misrepresentation, and the alleged misrepresentation is necessary to the probable
cause determination).
III. Conclusion
For the foregoing reasons, we affirm.
______________________________

-7-

Appellate Case: 19-1507

Page: 7

Date Filed: 03/31/2020 Entry ID: 4897195
Appendix p. 026

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-1507
___________________
United States of America
Plaintiff - Appellee
v.
Joel Thomas Augard
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-cr-00134-JAJ-1)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, SHEPHERD and ERICKSON, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
March 31, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-1507

Page: 1

Date Filed: 03/31/2020 Entry ID: 4897197

Appendix D
Appendix p. 027

Adopted April 15, 2015
Effective August 1, 2015
Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of
1964.
V. Duty of Counsel as to Panel Rehearing, Rehearing En Banc, and Certiorari
Where the decision of the court of appeals is adverse to the defendant in whole or in part, the
duty of counsel on appeal extends to (1) advising the defendant of the right to file a petition for
panel rehearing and a petition for rehearing en banc in the court of appeals and a petition for writ
of certiorari in the Supreme Court of the United States, and (2) informing the defendant of
counsel's opinion as to the merit and likelihood of the success of those petitions. If the defendant
requests that counsel file any of those petitions, counsel must file the petition if counsel
determines that there are reasonable grounds to believe that the petition would satisfy the
standards of Federal Rule of Appellate Procedure 40, Federal Rule of Appellate Procedure 35(a)
or Supreme Court Rule 10, as applicable. See Austin v. United States, 513 U.S. 5 (1994) (per
curiam); 8th Cir. R. 35A.
If counsel declines to file a petition for panel rehearing or rehearing en banc requested by the
defendant based upon counsel's determination that there are not reasonable grounds to do so,
counsel must so inform the court and must file a written motion to withdraw. The motion to
withdraw must be filed on or before the due date for a petition for rehearing, must certify that
counsel has advised the defendant of the procedures for filing pro se a timely petition for
rehearing, and must request an extension of time of 28 days within which to file pro se a petition
for rehearing. The motion also must certify that counsel has advised the defendant of the
procedures for filing pro se a timely petition for writ of certiorari.
If counsel declines to file a petition for writ of certiorari requested by the defendant based on
counsel's determination that there are not reasonable grounds to do so, counsel must so inform
the court and must file a written motion to withdraw. The motion must certify that counsel has
advised the defendant of the procedures for filing pro se a timely petition for writ of certiorari.
A motion to withdraw must be accompanied by counsel's certification that a copy of the motion
was furnished to the defendant and to the United States.
Where counsel is granted leave to withdraw pursuant to the procedures of Anders v. California,
386 U.S. 738 (1967), and Penson v. Ohio, 488 U.S. 75 (1988), counsel's duty of representation is
completed, and the clerk's letter transmitting the decision of the court will notify the defendant of
the procedures for filing pro se a timely petition for panel rehearing, a timely petition for
rehearing en banc, and a timely petion for writ of certiorari.

Appellate Case: 19-1507

Page: 1

Date Filed: 03/31/2020 Entry ID: 4897197
Appendix p. 028

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1507
United States of America
Appellee
v.
Joel Thomas Augard
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-cr-00134-JAJ-1)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Kelly did not participate in the consideration or decision of this matter.
May 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-1507

Page: 1

Date Filed: 05/15/2020 Entry ID: 4913632

Appendix E
Appendix p. 029

